                                      SOCIAL SECURITY
MEMORANDUM
Date:   May 7, 2003                                                         Refer To:

To:     Peter D. Spencer
        Regional Commissioner

From:   Assistant Inspector General
         for Audit

Subject: Audit of Administrative Costs Claimed by the California Disability Determination
        Services (A-09-02-22022)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the California Disability Determination Services’ internal controls over the
        accounting and reporting of administrative costs, determine if costs claimed were
        allowable and properly allocated, reconcile funds drawn down with claimed costs,
        and assess the electronic data processing general controls environment.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me at (410) 965-9700.




                                              S
                                              Steven L. Schaeffer

        Attachment

        cc:
        Rita Saenz
        Lenore Carlson
        Anthony DiNoto
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


     AUDIT OF ADMINISTRATIVE
      COSTS CLAIMED BY THE
      CALIFORNIA DISABILITY
     DETERMINATION SERVICES

    May 2003      A-09-02-22022




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVE
The objectives of our audit of the California Disability Determination Services were to
(1) evaluate internal controls over the accounting and reporting of administrative costs,
(2) determine if costs claimed were allowable and properly allocated, (3) reconcile funds
drawn down with claimed costs, and (4) assess the electronic data processing general
controls environment.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by disability
determination services (DDS) in each State in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring that
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources. SSA
reimburses the DDS for 100 percent of allowable expenditures.

RESULTS OF REVIEW
Our review of administrative costs disclosed that the California Department of Social
Services (DSS) had overstated its disbursements by $6,872,503 for October 1996
through March 2002. This occurred because DSS charged unallowable medical,
nonpersonnel, and indirect costs to SSA’s programs. We also found that DSS had
overstated its unliquidated obligations by $5,708,314 for Fiscal Years (FY) 1999 and
2000. As a result, DSS overreported its total obligations to SSA by $12,580,817
(see Appendix A). In addition, DSS needs to improve its cash management practices
and access controls over computer security.

RECOMMENDATIONS

We recommend that SSA instruct DSS to refund $3,879,737 in unallowable costs and
deobligate any unliquidated obligations that are not supported by valid documentation.
We also recommend that SSA determine the propriety of consultative examination fees
for x-rays, laboratory tests, and other medical services and recover any unallowable
costs. In addition, we recommend that SSA work with DSS to provide training to its
employees and improve controls and procedures over the reporting of administrative
costs, draw down of Federal funds, and systems access security.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)              i
SSA/DSS COMMENTS AND OIG RESPONSE
In its response, SSA generally agreed with 34 of the original 37 recommendations.
DSS generally agreed with 22 recommendations, disagreed with 14 recommendations,
and did not comment on 1 recommendation. Based on their comments, we deleted
2 of the original 37 recommendations and revised another 8 recommendations. In
addition, we incorporated a number of technical comments into the report. As of
March 2003, DSS refunded $2,364,702 in unallowable costs to SSA and agreed to
refund $1,171,878 in additional costs questioned by our audit. A summary of SSA’s
and DSS’ comments, along with our responses, is provided on pages 27-32 of this
report. The full text of SSA’s comments is included in Appendix C. Because of the
length of DSS’ comments, we did not include the full text as an appendix. A copy of
DSS’ comments may be obtained by written request to SSA/OIG/Office of Audit in
Baltimore, Maryland.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           ii
                                                            Table of Contents
                                                                                                                  Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

MEDICAL COSTS ...................................................................................................4

        Fee Increase for Six Specialty Examinations ...............................................5
        Fee Increase for Other Specialty Examinations............................................6
        X-Rays, Laboratory Tests, and Other Services ............................................8
        Duplicate Payments for MERs and CEs .......................................................8
        Review of Records Fees ..............................................................................9

NONPERSONNEL COSTS...................................................................................10

        Oakland and San Diego Branches .............................................................10
        Adult Programs Branch ..............................................................................11
        Information Technology Projects Bureau....................................................12
        Los Angeles State Programs Branch..........................................................12
        Central Support Services Branch and DAPD Support Bureau ...................13
        State Programs Quality Assurance Branch ................................................13

INDIRECT COSTS ................................................................................................14

        Statewide Indirect Costs.............................................................................14
        Departmental Indirect Costs .......................................................................15
        Cost Allocation Methodology ......................................................................16
        Special Administrative Indirect Costs .........................................................17

CASH MANAGEMENT..........................................................................................17

        Unnegotiated Warrants...............................................................................17
        Use of SSA Funds to Replenish State Funds .............................................18
        Draw Down of Federal Funds .....................................................................19

UNLIQUIDATED OBLIGATIONS ..........................................................................19

        Medical Costs .............................................................................................20
        Nonpersonnel Costs ...................................................................................21
        Indirect Costs..............................................................................................21




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
ACCESS CONTROLS...........................................................................................22

       MIDAS Transactions...................................................................................22
       Employee Workstations..............................................................................23

CONCLUSIONS AND RECOMMENDATIONS.....................................................24

APPENDICES

Appendix A – Summary of Monetary Results

Appendix B – Sampling Methodology

Appendix C – SSA Comments

Appendix D – OIG Contacts and Staff Acknowledgments




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                                                                    Acronyms
Act                      Social Security Act
AMA                      American Medical Association
ARF                      Architecture Revolving Fund
ASAP                     Automated Standard Application for Payments
CADDS                    California Disability Determination Services
CALSTARS                 California State Accounting and Reporting System
CE                       Consultative Examination
CFR                      Code of Federal Regulations
CMIA                     Cash Management Improvement Act
CPT                      Current Procedural Terminology
DAPD                     Disability and Adult Programs Division
DDS                      Disability Determination Services
DGS                      Department of General Services
DI                       Disability Insurance
DOF                      Department of Finance
DSS                      Department of Social Services
EDP                      Electronic Data Processing
Form SSA-4513            State Agency Report of Obligations for SSA Disability Programs
FY                       Fiscal Year
HHS                      Department of Health and Human Services
IWS/LAN                  Intelligent Workstation/Local Area Network
MER                      Medical Evidence of Record
MIDAS                    Modernized Interim Disability Adjudication System
OHA                      Office of Hearings and Appeals
OIG                      Office of the Inspector General
OMB                      Office of Management and Budget
POMS                     Program Operations Manual System
PwC                      PricewaterhouseCoopers LLP
ROR                      Review of Records
SSA                      Social Security Administration
SSI                      Supplemental Security Income
Treasury                 Department of the Treasury
USC                      United States Code


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                                                              Introduction
OBJECTIVE
The objectives of our audit of the California Disability Determination Services
(CADDS) were to (1) evaluate internal controls over the accounting and reporting of
administrative costs, (2) determine if costs claimed were allowable and properly
allocated, (3) reconcile funds drawn down with claimed costs, and (4) assess the
electronic data processing (EDP) general controls environment.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies
for the development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by disability determination
services (DDS) in each State in accordance with Federal regulations.1 In carrying out
its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments (ASAP)
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations2 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act (CMIA).3 An advance or reimbursement
for costs under the program must comply with the Office of Management and Budget’s
(OMB) Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.
At the end of each quarter of the fiscal year (FY), each DDS submits a Form SSA-4513,


1
    20 C.F.R. Part 404, Subpart Q and Part 416, Subpart J.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)             1
State Agency Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations.

CADDS is a component within the California Department of Social Services (DSS),
Disability and Adult Programs Division (DAPD). For FYs 1999 and 2000, CADDS had
about 1,500 employees and an authorized budget of $345.1 million for administrative
costs. As of June 30, 2001, DSS reported total disbursements of $339.8 million,
unliquidated obligations of $4.3 million, and unobligated funds of $1 million. The
following chart provides an overview of the organizational structure of DSS.


          Organization Chart for Department of Social Services
                                                                                       Human Rights and Community Relations

                                                                                       Local Government

                                                                                       Public Awareness and Outreach
                                                           Director
                                                                                       Legislation

                                                                                       Tribal Government Affairs

                                                                                       Special Assistant to the Directorate




                      Chief Deputy Director                                                       Chief Deputy Director
                      Childrens Programs                                               Adult Programs and Administrative Services




      Children    Community         Welfare to   Research and         Disability   Administration        Information           Legal      State
     and Family      Care             Work       Development          and Adult      Division              Systems            Division   Hearings
      Services     Licensing         Division      Division           Programs                             Division                      Division
      Division      Division                                           Division


                                                           California DDS Operations




SCOPE AND METHODOLOGY

We reviewed the administrative costs reported by CADDS on its Form SSA-4513
for FYs 1999 and 2000. However, seven of our findings affected the costs claimed in
FYs 1997 and 1998. In addition, 15 findings affected the costs claimed in FYs 2001 and
2002. Therefore, we expanded the audit period to fully develop these findings. For the
items tested, we reviewed DSS’ compliance with applicable laws and regulations over
the allowability of administrative costs and draw down of Federal funds.

To accomplish our objective, we:

•   Reviewed OMB Circular A-87, Code of Federal Regulations, United States Code,
    SSA’s Program Operations Manual System (POMS), DSS’ Time Reporting
    Handbook, and DSS’ Cost Allocation Plan;


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                                                                         2
•   Reviewed DSS’ policies and procedures related to nonpersonnel, medical, and
    indirect costs;

•   Interviewed employees from the California State Auditor’s Office, SSA regional
    office, DSS headquarters and branch offices, and Department of Health and
    Human Services (HHS), Division of Cost Allocation;

•   Reviewed the findings and recommendations of PricewaterhouseCoopers LLP
    (PwC) in SSA’s FY 2000 Management Letter, Appendix A, SSA Oversight of DDS
    Security;

•   Reviewed the corrective actions taken by DSS on our prior audit reports, including
    Audit of Administrative Costs at the California Disability Determination Services
    (A-09-97-51006), dated December 4, 1998, and Access Controls over the
    Modernized Interim Disability Adjudication System in the State of California
    (A-09-98-51010), dated January 14, 1999;

•   Evaluated and tested internal controls over accounting, financial reporting, and
    cash management;

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures;

•   Examined the administrative costs incurred and claimed by DSS for nonpersonnel,
    medical, and indirect costs during FYs 1999 and 2000;

•   Selected a random sample of nonpersonnel and medical costs, including
    (1) invoices for medical evidence of records (MER) during FYs 1997 through 2001,
    and (2) invoices for review of records during FYs 1998 through 2001; and

•   Reconciled the accounting records to the costs reported by DSS on its Form
    SSA-4513 for FYs 1999 and 2000.

Based on prior audit work conducted by the Office of the Inspector General (OIG) and
California State Auditor’s Office, we assigned a low risk to personnel costs and did not
perform a review of these costs during FYs 1999 and 2000. In addition, we limited our
review of EDP general controls to the prior findings reported by PwC and OIG.

We performed audit work at DSS, CADDS, and the California State Auditor’s Office
in Sacramento, California. We also performed audit work at the SSA regional
office in Richmond, California. Field work was conducted between July 2001 and
September 2002. The entity audited was the Office of Disability within the Office of
the Deputy Commissioner for Disability and Income Security Programs. We conducted
our audit in accordance with generally accepted government auditing standards.



Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                3
                                                           Results of Review
Our review of administrative costs disclosed that DSS had overstated its disbursements
by $6,872,503 for October 1996 through March 2002. This occurred because DSS
charged unallowable medical, nonpersonnel, and indirect costs to SSA’s programs.
We also found that DSS had overstated its unliquidated obligations by $5,708,314 for
FYs 1999 and 2000. As a result, DSS overreported its total obligations to SSA
by $12,580,817 (see Appendix A). In addition, DSS needs to improve its cash
management practices and access controls over computer security. The following
chart summarizes the total obligations overreported by DSS.



                                   Total Obligations Overreported by DSS
                           $6

                           $5
      Dollars (Millions)




                           $4

                           $3

                           $2

                           $1

                           $0
                                Unliquidated   Medical   Nonpersonnel   Indirect      Cash
                                Obligations     Costs       Costs        Costs     Management




MEDICAL COSTS
For FYs 1997 through 2001, we found that DSS claimed $2,630,449 of unsupported
medical costs that were charged to SSA’s programs. These costs included fee
increases for specialty examinations; x-rays, laboratory tests, and other services;
duplicate payments for MERs and consultative examinations (CE); and review of
records fees. The following chart provides a breakdown of the medical costs
questioned by our audit.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                     4
                             Unsupported Medical Costs
        Six Specialty
        Examinations
         $1,275,008




         Review of                                                       Duplicate Payments
        Records Fees                                                      for MERs and CEs
                             X-Rays, Laboratory     Other Specialty
          $12,671                                                              $167,564
                            Tests, Other Services    Examinations
                                   $625,631            $549,575




Fee Increase for Six Specialty Examinations

DSS paid excessive fees for six specialty examinations performed by board certified
or eligible physicians. This occurred because SSA and CADDS did not ensure that
the payment rates for medical services were consistent with applicable policies and
procedures. If payment rates were limited to the highest rate allowable by Federal or
other agencies in the State, we estimate that SSA could have realized $1,275,008 in
potential cost savings for October 1998 through December 1999.

Federal regulations require that each State determine the payment rates for medical
or other services necessary to make determinations of disability. The rates may not
exceed the highest rate paid by Federal or other agencies in the State for the same or
similar types of service. In addition, the State must maintain documentation to support
the payment rates used.4

SSA’s procedures state that the DDS should fully document its methodology for
establishing and updating payment rates for medical services. The DDS should
maintain records of the usual and customary charges billed by, and the authorized
payments disbursed to, medical providers. When possible, the DDS should also use
the American Medical Association’s (AMA) Current Procedural Terminology (CPT)
coding system to identify each procedure in its fee schedule.5



4
    20 C.F.R. §§ 404.1624 and 416.1024.
5
    POMS, section DI 39545.410.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                   5
Effective July 1, 1998, CADDS increased its fees for full examinations performed
by board certified or eligible physicians in the following six medical specialties:
cardiology, neurology, orthopedics, pediatrics, psychiatry, and internal medicine.
CADDS acknowledged that the revised rates should be reviewed closely to ensure
they did not exceed those paid under the Medicare program. Nevertheless, this fee
increase resulted in payment rates in excess of those allowed by Medicare, which
represents the highest rate paid by Federal or other agencies in the State.

In January 1999, SSA’s Office of Disability convened a workgroup to provide guidance
for establishing fee schedules for medical procedures.6 SSA stated that each State
should be cost-efficient and make every attempt to negotiate fees below the highest
allowable rates. However, SSA concluded that the maximum payment rates shall be
based on the Medicare fee schedule if the DDS does not use other State agency fee
schedules for the same or similar types of service. To identify the applicable Medicare
fees for its CEs, SSA stated that the DDS could use one of four CPT codes based on
the complexity of the examination. Specifically, SSA stated that the DDS could use
CPT code 99243 (that is, a detailed, 40-minute examination) for most of its CEs.

Although Medicare uses the AMA’s CPT coding system, our review disclosed that
CADDS has not fully adopted such a system for its CEs, including the six specialty
examinations. A standardized coding system is necessary to (1) provide a crosswalk
between the DDS and Medicare codes for the same or similar types of service, and
(2) enable SSA and CADDS to readily identify, monitor, and compare CE costs against
fees paid by other agencies. In response to our draft report, CADDS stated that it had
selected CPT code 99204 (that is, a comprehensive, 45-minute examination) for its
specialty examinations.

For the six medical specialties, CADDS paid $18,553,414 for 153,334 examinations
by board certified or eligible physicians for October 1998 through December 1999.
However, using the applicable Medicare fees for CPT code 99204, the maximum
payments for these examinations were limited to $17,278,406. Therefore, if payment
rates were limited to the highest allowable fees, we estimate that SSA could have
realized $1,275,008 in potential cost savings. We recognize that other CPT codes
may apply to the six specialty examinations performed by board certified or eligible
physicians. Accordingly, SSA should improve its oversight of CE fees and limit future
payments to the highest rate paid by Federal or other agencies in the State.

Fee Increase for Other Specialty Examinations

DSS paid excessive fees for other specialty examinations performed by board certified
or eligible physicians. CADDS did not provide SSA with adequate notification and
justification to increase its fees from six specialty examinations to all specialty
examinations. Such fees were neither reasonable nor necessary. As a result, SSA
reimbursed DSS for $549,575 of unsupported costs for FYs 1999 through 2001.


6
    SSA, Office of Disability, Medical Procedures Fee Schedule Workgroup Report, January 1999.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                      6
SSA’s procedures require the DDS to notify the SSA regional office of any changes in
its fee schedules for MERs and CEs. In addition, the DDS should review its records
annually with the SSA regional office to determine whether the fee schedule is adequate
and cost-effective.7

On November 14, 1997, CADDS notified SSA of its proposal to increase fees for CEs
performed by board certified or eligible physicians to $121 by adding a specialty fee of
$25 to the payment rate of $96. The notification limited the $25 fee to full examinations
by board certified or eligible physicians in six medical specialties only. CADDS stated
that the fee increase would facilitate the recruitment of medical specialists and improve
the quality of the examinations. However, CADDS stated there was no current urgency
to recruit general practice physicians or nonessential specialists for other specialty
examinations.

SSA recommended that CADDS conduct a pilot study in two branch offices to evaluate
the impact of the fee increase and determine if the expected benefits were realized.
Nevertheless, on July 1, 1998, CADDS implemented the fee increase statewide for
the six specialty examinations. On September 15, 1998, CADDS expanded the fee
increase to all specialty examinations by board certified or eligible physicians. CADDS
also described the specialty fee as a “bonus” and stated that employees were not
required to monitor whether the physicians were actually board certified or eligible.

CADDS issued a memorandum to notify its branch offices of the expanded fee increase.
However, the memorandum was not addressed to SSA. Although SSA subsequently
obtained a copy of the memorandum, we do not believe such notification was adequate.
During our audit, we found no evidence to indicate that SSA management had been
properly notified of the fee increase. Moreover, CADDS did not provide supporting
documentation for the fee increase, even though it had previously stated that such
fees were not necessary for other specialty examinations.

For FYs 1999 through 2001, CADDS purchased 21,983 examinations by board
certified or eligible physicians in other medical specialties. Because CADDS provided
insufficient notification and justification to SSA, we believe these examinations were
not eligible for the $25 specialty fee. Therefore, CADDS should provide supporting
documentation for its expansion of the fee increase to all specialty examinations.
Furthermore, since POMS only requires the DDS to provide notification of any changes
in its fee schedule, SSA should clarify its procedures for reviewing subsequent fee
increases in a timely manner.




7
    POMS, sections DI 39545.210 and DI 39545.410.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)               7
X-Rays, Laboratory Tests, and Other Services

DSS paid excessive fees for its x-rays, laboratory tests, and other medical services.
This occurred because CADDS reimbursed medical providers at payment rates
in excess of the maximum rates paid by Federal or other agencies in the State.
As a result, SSA reimbursed DSS for $625,631 of unallowable costs for FYs 1999
through 2001.

The DDS is responsible for obtaining adequate medical evidence to support its disability
determinations. In doing so, the DDS may purchase CEs to supplement the MER
obtained from the claimants’ treating sources. SSA’s procedures require the DDS to
establish a fee schedule to reimburse medical providers for their services. Authorized
payments represent the lower of (1) the provider’s usual and customary charge, or
(2) the maximum allowable charge under the fee schedule (that is, the highest rate paid
by Federal or other agencies in the State for the same or similar types of service).8

In California, the payment rates for medical services are based on the fees paid under
the Medi-Cal program. The California Department of Health Services is responsible for
establishing the Medi-Cal fee schedule. These fees are lower than those paid under the
Medicare program. Our review disclosed that Medicare paid the highest rate among
Federal or other agencies in the State for the same or similar types of service.

We matched the rates paid by Medicare with the fees paid by CADDS for its x-rays,
laboratory tests, and other medical services. Accordingly, we found that CADDS used
payment rates exceeding those allowed by Medicare. CADDS paid $2,209,717 for
29,491 CEs during FYs 1999 through 2001. However, using the applicable Medicare
fees, the maximum payments for these CEs were limited to $1,584,086. Therefore, we
determined that CADDS disbursed $625,631 in excess of the allowable Medicare fees.
SSA should evaluate the reasonableness of these fees and recover any unallowable
costs.

Duplicate Payments for MERs and CEs

DSS charged duplicate payments for MERs and CEs from vendors (that is, physicians,
hospitals, interpreters, and other medical providers). This finding was reported in our
prior audit for FYs 1995 and 1996. DSS partially agreed with our recommendations.
However, because of inadequate controls and procedures over the processing
of medical costs, CADDS disbursed duplicate payments of at least $121,342 for
medical records and $46,222 for medical services. As a result, we estimate that SSA
reimbursed DSS for at least $167,564 of unallowable costs for FYs 1997 through 2001.

In our prior audit, we reported that CADDS did not always (1) resolve exception
reports before disbursing payments to vendors, and (2) contact medical providers
before ordering medical records for claimants. SSA’s Modernized Interim Disability
Adjudication System (MIDAS) generates exception reports to identify questionable
8
    POMS, section DI 39545.210.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)               8
transactions resulting in potential duplicate payments. On a weekly basis, CADDS
distributes the exception reports to its branch offices for review. However, unless
notified otherwise, DSS disburses payments for these transactions regardless of
whether the exception reports are reviewed or resolved. Our review identified duplicate
payments for questionable transactions on the exception reports and multiple requests
for the same medical records or services.

For medical records, we reviewed a sample of MER invoices with matching data
elements to identify duplicate payments. These MERs included copies of x-rays,
prescriptions, laboratory reports, ancillary tests, and operative and pathology reports.
Based on our random sample of 100 invoices during FYs 1997 through 2001, we found
52 invoices representing duplicate payments for the same medical records. Projecting
these results to our population of 14,605 invoices, we estimate that CADDS disbursed
at least $121,342 in duplicate payments for medical records (see Appendix B).

For medical services, we reviewed all CE invoices with matching data elements
to identify duplicate payments. Based on our population of 1,420 invoices during
FYs 1997 through 2001, we found 977 invoices representing duplicate payments for
the same medical services. For these cases, we determined that CADDS disbursed
$46,222 in duplicate payments for medical services.

Review of Records Fees

DSS charged excessive medical costs for review of records. This finding was
reported in our prior audit for FYs 1995 and 1996. DSS partially agreed with our
recommendations. However, because of clerical errors, CADDS paid fees for
vendors to review medical records even though such fees were not related to missed
appointments or Office of Hearings and Appeals (OHA) cases as required. As a result,
we estimate that SSA reimbursed DSS for at least $12,671 of unallowable costs for
FYs 1998 through 2001.

DSS’ procedures state that a maximum fee of $20 is authorized for review of records on
no-show appointments for medical examinations. In addition, the $20 fee is authorized
for review of records on OHA cases involving a large volume of evidence. However,
this fee is a 1-time payment and cannot be paid twice for the same claimant, medical
provider, and examination. If the fee is paid for no-show appointments, it cannot be
paid for OHA cases, and visa versa.9

In our prior audit, we reported that DSS should clarify its procedures over the
allowability of fees for the review of medical records. Although DSS implemented
corrective action, such controls were not always sufficient to ensure the propriety of
review of records fees.




9
    Medical Services Manual, sections 701-4 and 701-5.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)              9
Based on our random sample of 100 invoices during FYs 1998 through 2001, we
found 8 invoices representing erroneous payments because they were not related to
missed appointments or OHA cases. Projecting these results to our population of
18,178 invoices, we estimate that CADDS disbursed at least $12,671 in erroneous
payments for review of records (see Appendix B).

NONPERSONNEL COSTS
For May 1998 through February 2002, we found that DSS claimed $2,362,730 of
unallowable nonpersonnel costs that did not benefit SSA’s programs. These costs
included nonpersonnel costs from the Oakland and San Diego Branches, Adult
Programs Branch, Information Technology Projects Bureau, Los Angeles State
Programs Branch, Central Support Services Branch and DAPD Support Bureau,
and State Programs Quality Assurance Branch. The following chart provides a
breakdown of the nonpersonnel costs questioned by our audit.



                       Unallowable Nonpersonnel Costs
    Oakland and San
    Diego Branches
       $1,694,079




       Central Support                                                             State Programs
     Services Branch and                                          Information     Quality Assurance
    DAPD Support Bureau    Adult Programs   Los Angeles State     Technology           Branch
           $41,752             Branch       Programs Branch     Projects Bureau        $37,168
                              $252,371          $105,061            $232,299




Oakland and San Diego Branches

DSS charged excessive rental costs for the Oakland and San Diego branch offices.
This occurred because DSS employees were unaware that (1) the rent at these two
locations was limited to the rates established by the prior leases, and (2) the San Diego
branch offices were charged for rent before the actual move-in date. As a result,
SSA reimbursed DSS for $1,694,079 in unallowable costs for March 1999 through
February 2002.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                           10
CADDS maintains 12 branch offices and performs disability evaluations for SSA. Four
of these branches moved from privately-owned buildings to State-owned buildings.
SSA approved the relocation provided that the rent did not exceed the amounts in the
prior leases. Any excessive rental costs or other expenses related to the relocation
were to be paid by the State of California. DSS relocated the branch offices before the
prior leases had expired. The two Oakland branch offices moved into the Elihu Harris
State Office Building in February 1999 and the two San Diego branch offices moved into
the Mission Valley State Office Building in June 2001.

The California Department of General Services (DGS) manages the State-owned
buildings. DGS performs maintenance and other services, including billing the tenants
for their share of the rent. For the Oakland and San Diego branch offices, the rental
costs were higher at the new State buildings than in the privately-owned buildings.
However, DSS employees in the Financial Services Bureau were unaware of the rent
limitation that precluded charging SSA for costs in excess of the amounts in the prior
leases. Therefore, the full amount of rent for the new Oakland and San Diego branch
offices was charged to SSA’s programs.

For the Oakland branch offices, CADDS subsequently learned that excessive rental
costs had been charged. In February 2000, CADDS requested that DSS adjust these
costs and charge any rent in excess of the prior lease amounts to a non-SSA account.
In March 2000, DSS refunded $538,051 to SSA. However, DSS continued to charge
the full amount of rent to SSA’s programs. For March 1999 through February 2002,
DSS charged $1,635,078 in excessive rental costs for the Oakland branch offices and
refunded only $538,051 to SSA. As a result, DSS should refund the remaining
$1,097,027 in excessive rental costs.

For the San Diego branch offices, DSS also learned that excessive rental costs had
been charged. During our audit, DSS employees were in the process of adjusting
their accounting records to correct most of these costs. However, we found that DGS
billed $526,750 for the State-owned building based on the initial move-in date of
December 2000, even though CADDS did not occupy the space until June 2001.
Furthermore, because CADDS had terminated the prior lease before the State-owned
building was available, it incurred $70,302 in additional rental costs to lease the
privately-owned building for another 6 months. As a result, DSS should refund the
$597,052 in excessive rental costs.

Adult Programs Branch

DSS charged nonpersonnel costs from the Adult Programs Branch to SSA’s programs.
The Adult Programs Branch, a component within DAPD, provides oversight of State
programs for the aged, blind, or disabled. Because DSS employees were not properly
trained to allocate costs for the Adult Programs Branch, these costs were charged to
SSA’s programs. As a result, SSA reimbursed DSS for $252,371 in unallowable costs
for October 1998 through June 2001.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           11
SSA’s procedures authorize the Agency to provide States with funding for all
expenditures, direct or indirect, necessary to make disability determinations.
Generally, any expenditures incurred for SSA’s disability determination process
are deemed essential and may be charged to the Agency.10

Although most components within DAPD perform activities that benefit SSA’s programs,
the activities of the Adult Programs Branch benefit non-SSA programs only. Therefore,
the costs from the Adult Programs Branch should not have been charged to SSA’s
programs. DSS employees in the Business and Financial Services Bureaus were
unaware of the proper method to charge costs for the Adult Programs Branch. These
employees charged all DAPD costs to SSA’s programs rather than allocate the costs to
the benefiting programs.

Information Technology Projects Bureau

DSS charged rental and security costs for office space that did not house employees
assigned to SSA’s programs. This finding was reported in our prior audit for FYs 1995
and 1996. DSS agreed with our recommendations but did not correct the method of
charging rental and security costs. As a result, SSA reimbursed DSS for $232,299 of
unallowable costs for May 1998 through June 2001.

In our prior audit, we reported that the MIDAS Project Section, a component within
the Information Technology Projects Bureau, performs activities that primarily benefit
SSA’s programs. In September 1996, the MIDAS Project Section relocated to another
building. Although DSS charged the rental and security costs for the new building to
SSA’s programs, it also charged the costs for the old building to the overhead account
for the Information Technology Projects Bureau. Based on employee time reports,
these costs were subsequently allocated to SSA’s programs. Therefore, DSS charged
$196,413 in unallowable costs for October 1996 through April 1998.

In July 1999, DSS refunded these costs to SSA and renamed the MIDAS Project
Section as the DAPD Support Bureau. However, DSS did not revise its method for
allocating the costs for the Information Technology Projects Bureau. For May 1998
through June 2001, DSS incorrectly allocated $232,299 of rental and security costs for
the Information Technology Projects Bureau to SSA’s programs.

Los Angeles State Programs Branch

DSS charged telephone costs from the Los Angeles State Programs Branch to SSA’s
programs. This occurred because DSS employees misclassified these expenditures as
telephone costs for the Los Angeles West Branch, which performs activities that benefit
SSA’s programs. As a result, SSA reimbursed DSS for $105,061 in unallowable costs
for August 1998 through February 2001.



10
     POMS, section DI 39506.001.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)          12
The Los Angeles State Programs Branch develops, evaluates, and adjudicates
Medi-Cal (that is, Medicaid) claims. Our review disclosed that the telephone costs
were applicable to the Los Angeles State Programs Branch rather than the Los Angeles
West Branch. Therefore, these costs should not have been charged to SSA’s
programs. In March 2001, CADDS identified the incorrect charges and adjusted its
method of charging these costs for subsequent years. However, DSS did not refund
the incorrect charges for prior years.

Central Support Services Branch and DAPD Support Bureau

DSS charged excessive rental costs for office space occupied by the Central Support
Services Branch and DAPD Support Bureau. These components perform activities that
benefit both SSA and non-SSA programs. However, DSS charged the rental costs for
the Central Support Services Branch and DAPD Support Bureau entirely to SSA’s
programs. As a result, SSA reimbursed DSS for $41,752 in unallowable costs for
October 1999 through June 2001.

According to DSS’ Cost Allocation Plan, general expenditures benefiting multiple
programs, such as office rent and utilities, should be charged to the component’s
overhead account.11 These expenditures are allocated to benefiting programs based
on employee time reports.

In October 1999, the Central Support Services Branch and DAPD Support Bureau
relocated to a new building. CADDS instructed DSS employees in the Financial
Services Bureau to charge the rental costs for office space occupied by these
components to SSA’s programs. Although these costs benefited multiple programs,
CADDS was unaware of the proper method to charge costs for office space. For
October 1999 through June 2001, DSS charged $572,715 of rental costs for the
Central Support Services Branch and DAPD Support Bureau, of which $41,752 was
incorrectly allocated to SSA’s programs.

State Programs Quality Assurance Branch

DSS charged rental costs for office space occupied by the State Programs Quality
Assurance Branch to SSA’s programs. This occurred because DSS employees did
not provide sufficient guidance to ensure these expenditures were charged to the
benefiting programs. As a result, SSA reimbursed DSS for $37,168 in unallowable
costs for August 1998 through November 1999.

The State Programs Quality Assurance Branch reviews and monitors adjudicated
Medi-Cal claims. Since these activities benefit State programs only, the rental
costs should not have been charged to SSA’s programs. In October 1999, the
State Programs Quality Assurance Branch relocated to a new building. Effective
December 1999, DSS properly charged the rental costs to State programs.


11
     DSS’ Cost Allocation Plan for Direct and Indirect Costs, State FYs 1999 through 2001.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                  13
INDIRECT COSTS
For May 1998 through March 2002, we found that DSS claimed $1,708,097 of
unallowable indirect costs that did not benefit SSA’s programs. These costs
included statewide, departmental, and special administrative indirect costs. The
following chart provides a breakdown of the indirect costs questioned by our audit.



                               Unallowable Indirect Costs
      Statewide                                                                    Departmental
    Indirect Costs                                                                Indirect Costs
       $542,552                                                                      $503,227




                Special Administrative                              Cost Allocation
                   Indirect Costs                                    Methodology
                      $281,154                                        $381,164




Statewide Indirect Costs

DSS charged excessive statewide indirect costs to SSA’s programs. For State
FYs 1998 through 2000, DSS was unaware of adjustments to the proposed statewide
indirect costs. Accordingly, DSS used the proposed costs rather than the actual costs
during this period. As a result, SSA reimbursed DSS for $542,552 in unallowable costs
for July 1998 through June 2001.

Indirect cost pools are used when activities benefit multiple programs or the entire
department. Statewide indirect costs are expenditures for services that benefit all
departments within the State. These services include accounting, auditing, budgeting,
and payroll from the California Department of Finance (DOF), Office of the State
Controller, and State Personnel board. Statewide indirect cost pools are used to
allocate an equitable share of statewide costs to the Federal programs benefiting
from these services.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                        14
Upon approval of the Statewide Indirect Cost Allocation Plan, DOF notified all State
departments, in writing, of any revisions to the proposed statewide indirect costs.
However, effective State FY 1998, DOF discontinued this practice. Instead, DOF
required State departments to review its website for any revisions to the proposed
statewide indirect costs. Because DSS employees were unaware of this requirement,
they did not learn of subsequent adjustments to the proposed statewide indirect costs.

For July 1998 through June 2001, DSS allocated $1,509,226 of excessive statewide
indirect costs, of which $592,961 was incorrectly charged to SSA’s programs. However,
because of an accounting error, DSS did not charge $50,409 of allowable statewide
indirect costs to SSA’s programs in June 1998. After subtracting the allowable costs
from the unallowable costs, we determined the net unallowable costs were $542,552.
In April 2002, DSS adjusted its accounting records and refunded these costs to SSA.
Therefore, we are not recommending a refund for this amount.

Departmental Indirect Costs

DSS incorrectly charged departmental indirect costs from various components within
the Information Systems Division to SSA’s programs. These components included the
Information Systems Bureau, Information Technology Planning Bureau, and PC Support
Unit. This finding was reported in our prior audit for FYs 1995 and 1996. DSS agreed
with our recommendations but did not take corrective action in a timely manner. As a
result, SSA reimbursed DSS for $503,227 of unallowable costs for May 1998 through
March 1999.

In our prior audit, we reported that the Information Systems Bureau and Information
Technology Planning Bureau (1) maintained insufficient documentation for its time
charges to the departmental indirect cost pool, and (2) included employees in the
incorrect organizational units for time reporting purposes. In addition, the Information
Technology Planning Bureau charged costs to the departmental indirect cost pool using
estimated rather than actual time charges. In February 1998, we notified DSS of these
weaknesses and recommended the use of proper time reporting procedures so that
costs were equitably distributed to the benefiting programs.

In April 1999, the Information Systems Bureau and Information Technology Planning
Bureau discontinued charging expenditures to the departmental indirect cost pool,
which is allocated to all programs including SSA’s programs. Instead, both components
charged expenditures to a special administrative indirect cost pool, which is allocated
to all programs excluding SSA’s programs. However, DSS did not refund any prior
incorrect charges to SSA. For October 1998 through March 1999, these components
incorrectly charged $1,094,781 to the departmental indirect cost pool, of which
$439,823 was allocated to SSA’s programs.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           15
In our prior audit, we also reported that the PC Support Unit performed activities
that primarily benefit non-SSA programs. However, the PC Support Unit charged
expenditures to the departmental indirect cost pool, which is allocated to SSA and
non-SSA programs. For October 1994 through April 1998, DSS adjusted its accounting
records and refunded $527,322 to SSA. Nevertheless, the PC Support Unit continued
to charge expenditures to the departmental indirect cost pool. For May 1998 through
September 1998, the PC Support Unit incorrectly charged $159,318 to the departmental
indirect cost pool, of which $63,404 was allocated to SSA’s programs.

Cost Allocation Methodology

DSS charged excessive departmental and statewide indirect costs to SSA’s programs.
We found that DSS incorrectly revised its methodology for allocating indirect costs
to the benefiting programs without obtaining approval from HHS, Division of Cost
Allocation. As a result, SSA reimbursed DSS for $381,164 of unallowable costs for
March 1999 through June 2001.

Federal cost standards require all programs that benefit from expenditures in an
indirect cost pool to receive an appropriate allocation of indirect costs.12 Each year,
HHS reviews and approves DSS’ Cost Allocation Plan. Each month, DSS allocates
indirect costs to the benefiting programs based on the ratio of salaries charged to each
program divided by the salaries charged to all programs.

The departmental and statewide indirect cost pools benefit all programs, including
SSA and non-SSA programs. In March 1999, DSS established a special administrative
indirect cost pool to accumulate the costs of activities that benefit non-SSA programs
only. However, because of errors in its methodology for allocating these costs,
DSS included the special administrative indirect cost pool with the departmental and
statewide indirect cost pools. This resulted in an inequitable distribution of departmental
and statewide indirect costs to SSA. In addition, DSS omitted the revised methodology
from its Cost Allocation Plan for July 1998 through June 2001 and, therefore, did not
obtain approval from HHS as required.

For March 1999 through June 2001, DSS allocated an additional $251,891 of
departmental indirect costs and $129,273 of statewide indirect costs to SSA’s programs
that should have been allocated to non-SSA programs. Effective July 1, 2002, DSS
discontinued its use of the special administrative indirect cost pool. Although DSS
corrected its method of charging these costs for subsequent years, it did not refund
the incorrect charges for prior years.




12
     OMB Circular A-87, Attachment A, C.3.b.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)             16
Special Administrative Indirect Costs

DSS charged special administrative indirect costs to SSA’s programs. However,
these costs did not benefit SSA’s programs. Because of errors in its allocation of
special administrative indirect costs, DSS did not ensure these costs were allocated
to non-SSA programs only. As a result, SSA reimbursed DSS for $281,154 of
unallowable costs for March 1999 through March 2002.

Federal cost standards state that expenditures may be allocated to a particular
program if the goods or services are charged in accordance with the relative benefits
received.13 The special administrative indirect cost pool is limited to activities within the
Administration and Information Systems Divisions that benefit all programs except for
SSA’s programs. We found that SSA did not receive any benefits from the expenditures
charged to the special administrative indirect cost pool. Therefore, DSS should refund
these costs to SSA.

CASH MANAGEMENT
DSS needs to improve its cash management practices. These practices included the
collection of funds from unnegotiated warrants, use of SSA funds to replenish State
funds, and proper draw down of Federal funds.

Unnegotiated Warrants

DSS did not return funds from unnegotiated warrants (that is, checks) to SSA’s
programs. This occurred because DSS was unaware of a change in State regulations,
which required the Agency to collect and remit funds from the cancellation of
unnegotiated warrants to the applicable Federal grants. As a result, DSS owed
SSA for $128,071 in unnegotiated warrants for January 1999 through June 2001.

Effective January 1, 1998, the Office of the State Controller cancelled all warrants that
were not negotiated after 12 months and set aside the funds in an escheat account.14
State departments were responsible for collecting and returning funds to the applicable
Federal grants.

Our review disclosed that DSS did not establish procedures to recover the proceeds
from unnegotiated warrants and refund such amounts to the applicable Federal grants.
For January 1999 through June 2001, the Office of the State Controller cancelled
$128,071 in outstanding warrants against SSA’s programs. During our audit, DSS
employees were in the process of initiating corrective action to return these funds to
SSA.



13
     OMB Circular A-87, Attachment A, C.3.a.
14
     State Administrative Manual, section 8281.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)               17
Use of SSA Funds to Replenish State Funds

DSS incorrectly used SSA funds to replenish State funds for two projects. To support
its draw down of Federal funds, DSS recorded expenditures for $1,284,803 even though
only $8,136 had been incurred for these projects. This resulted in the premature draw
down of $1,276,667 in Federal funds. As a result, DSS owed $43,156 in lost interest
to the Federal Government for March 2001 through March 2002.

State regulations require the transfer of funds to DGS’ Architecture Revolving Fund
(ARF) for the construction, alteration, repair, and improvement of State buildings.15
However, Federal regulations require the State to comply with other Federal laws
and regulations in carrying out its disability determination services, such as Treasury
regulations on the draw down of Federal funds.16 The CMIA agreement prohibits
the draw down and transfer of Federal funds to the ARF for projects started after
May 1, 1999. Instead, it requires the State to draw down Federal funds each month
based on actual expenditures. In addition, the State shall incur an interest liability on
any Federal funds drawn in advance of expenditures.17

In FY 2000, SSA authorized $1,284,803 in funding for two projects. These projects
included $821,803 for the electrical retrofit of 10 branch offices and $463,000 for facility
improvements at the Roseville branch office. Although CADDS obligated the funds
for these projects in FY 2000, both projects were not scheduled for completion until
subsequent FYs.

In September 2000, DSS transferred $1,284,803 of State funds to the ARF for the
two projects. In February 2001, DSS withdrew $1,284,803 of SSA funds to reimburse
the State for its prior transfer. Since expenditures are required for the draw down of
Federal funds, DSS entered an expenditure in its accounting records for $1,284,803.
However, as of March 2001, DSS disbursed only $8,136 of expenditures for both
projects. Therefore, DSS withdrew $1,276,667 of Federal funds in advance of
expenditures for these projects.

As of March 2002, DSS had disbursed $26,816 of expenditures for the two projects,
thereby leaving a principal balance of $1,257,987. Using the average annualized yield
for 13-week Treasury bills, we determined that DSS should pay $43,156 in lost interest
for March 2001 through March 2002. For both projects, DSS should also return the
unused funds in the ARF to the Federal Government.




15
     California Government Code, section 14957.
16
     20 C.F.R. §§ 404.1632 and 416.1032.
17
     State FY 2000-2001 CMIA Agreement, section 9.7.15.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                 18
Draw Down of Federal Funds

DSS withdrew Federal funds for expenditures for the incorrect FYs. This occurred, in
part, because DSS did not request additional funding authority from SSA. Although
these funds were subsequently returned to the applicable grants, DSS should not have
used the funds of 1 FY to pay for the expenditures of another FY. As a result, DSS
needs to improve its accountability over Federal funds to ensure that such funds are
drawn for authorized purposes only.

Federal laws state that the balance of an appropriation or fund limited for obligation to a
definite period is available only for expenditures properly incurred during the period of
availability. The appropriation or fund is not available for expenditures beyond the
period otherwise authorized by law.18

Each month, DSS obtains two cash draws through Treasury’s ASAP system to pay
CADDS for necessary expenditures in performing its disability determinations. SSA is
responsible for establishing, maintaining, and funding the CADDS accounts in the
ASAP system. The State may obtain cash draws only for expenditures within the
applicable grant period.

Our review disclosed that the SSA regional office did not monitor the draw down of
funds to ensure compliance with Federal laws. We found that DSS withdrew funds
from prior grants to pay for current expenditures. For example, on October 26, 1998,
DSS withdrew $5,000,000 from the FY 1998 grant to cover FY 1999 expenditures. DSS
returned these funds to the FY 1998 grant on December 17, 1998. In addition, DSS
withdrew funds from current grants to pay for prior expenditures. For example, on
November 2, 1998, DSS withdrew $9,744,578 from the FY 1999 grant to cover FY 1998
expenditures and adjustments. DSS returned these funds to the FY 1999 grant on
December 17, 1998.

UNLIQUIDATED OBLIGATIONS
CADDS reported unliquidated obligations in excess of supporting expenditures.
Unliquidated obligations are cost commitments for goods and services that have not
been paid. This finding was reported in our prior audits for (1) FYs 1995 and 1996,
(2) FYs 1992 and 1993, and (3) FYs 1987 through 1989. CADDS agreed with
our recommendations but continued to use ineffective methods for estimating its
unliquidated obligations. As a result, CADDS overstated its unliquidated obligations by
$5,708,314 for FYs 1999 and 2000. Since CADDS retained the unliquidated obligations
until after the end of the FY, SSA was unable to deploy these funds for other needs in
administering its disability program.




18
     31 U.S.C. § 1502.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)              19
SSA’s procedures state that valid unliquidated obligations should be supported by
documents and records describing the nature of obligations and supporting amounts
recorded. State agencies should review unliquidated obligations at least once each
month to cancel those no longer valid. In addition, State agencies are required to
provide narrative reports on the status of unliquidated obligations with the quarterly
Form SSA-4513.19 These unliquidated obligations include medical, nonpersonnel,
indirect, and personnel costs. The following table summarizes the unliquidated
obligations in excess of supporting costs at the end of FYs 1999 and 2000.



      Unliquidated Obligations in Excess of Supporting Costs
              Category                FY 1999             FY 2000                Total
       Medical Costs                   $442,985          $3,123,109           $3,566,094
       Nonpersonnel Costs             1,247,770             508,637            1,756,407
       Indirect Costs                   320,001             208,428              528,429
       Personnel Costs                   53,072            (195,688)            (142,616)
       Total                         $2,063,828          $3,644,486           $5,708,314



Medical Costs

CADDS obtained data from MIDAS and California State Accounting and Reporting
System (CALSTARS) to estimate its unliquidated obligations for medical costs.
Because of timing differences, this methodology did not produce accurate estimates.
In addition, CADDS stated that it did not always deobligate funds for cancelled medical
appointments. Since funds are obligated when the appointments are scheduled,
they should be deobligated when the appointments are cancelled. As a result, CADDS
overstated its unliquidated obligations by $3,566,094 for FYs 1999 and 2000.

For example, at the end of FY 2000, CADDS estimated its unliquidated obligations
for medical costs were $6,836,604. However, we determined that CADDS only
needed $3,713,495, which represents actual expenditures of $3,701,059 plus valid
encumbrances of $12,436 as of September 30, 2001. This resulted in excess
unliquidated obligations of $3,123,109. The following chart illustrates the estimated
and actual medical costs reported in the current and prior audits.




19
     POMS, section DI 39506.203.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                 20
                                 Unliquidated Obligations for Medical Costs

                            $7

                            $6                                       Estim ated
                                                                     Actual
                            $5
       Dollars (Millions)




                            $4

                            $3

                            $2

                            $1

                            $0
                                    1995        1996                 1999         2000
                                                       Fiscal Year




Nonpersonnel Costs

CADDS relied on historical data to estimate its unliquidated obligations for
nonpersonnel costs. However, CADDS stated that it did not always adjust its
estimate to (1) exclude nonrecurring costs from the prior FY, (2) include only those
recurring costs allocable to the current FY, and (3) deobligate funds for planned
purchases which were subsequently cancelled. As a result, CADDS overstated its
unliquidated obligations by $1,756,407 for FYs 1999 and 2000.

For example, at the end of FY 1999, CADDS estimated its unliquidated obligations
for nonpersonnel costs were $3,079,820. However, we determined that CADDS only
needed $1,832,050, which represents actual expenditures of $1,769,766 plus valid
encumbrances of $62,284 as of September 30, 2001. This resulted in excess
unliquidated obligations of $1,247,770.

Indirect Costs

CADDS used ineffective methods to estimate its unliquidated obligations for indirect
costs. Specifically, CADDS stated that its estimates were based, in part, on the total
encumbrances for indirect costs and unliquidated obligations for personnel costs.
CADDS relied on such estimates because CALSTARS did not provide a record of
unliquidated obligations for indirect costs at the end of the FY. As a result, CADDS
overstated its unliquidated obligations by $528,429 for FYs 1999 and 2000.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)              21
For example, at the end of FY 1999, CADDS estimated its unliquidated obligations
for indirect costs were $742,680. However, we determined that CADDS only needed
$422,679, which represents actual expenditures of $400,770 plus valid encumbrances
of $21,909 as of September 30, 2001. This resulted in excess unliquidated obligations
of $320,001.

ACCESS CONTROLS
DSS needs to improve its access controls over computer security. These controls
included the monitoring of MIDAS transactions and safeguards over employee
workstations. Details are provided below.

MIDAS Transactions

CADDS did not adequately monitor the transactions of employees with unlimited
access to MIDAS. This finding was reported in our prior audit for FYs 1995 and 1996.
CADDS agreed with our recommendations and implemented controls to track MIDAS
transactions. However, CADDS did not follow up to review such transactions on an
ongoing basis. As a result, CADDS needs to strengthen its access controls over
MIDAS to minimize the risk of unauthorized transactions.

SSA’s procedures require the use of audit trails to monitor and review systems
transactions. These audit trails must be designed, implemented, and maintained to
enforce individual accountability so that transactions may be traced to the user initiating
the action.20

MIDAS is the computer program for processing disability claims in California.
The CADDS computer system consists of a network of seven AS400 mainframe
systems. CADDS uses MIDAS to connect computer workstations to SSA’s Intelligent
Workstation/Local Area Network (IWS/LAN). CADDS limits access in MIDAS through
user profiles and personal passwords. These controls restrict users to specific activities
within MIDAS and provide for separation of duties (that is, users who initiate contracts
are not allowed to authorize payment of contracts). However, security officers retain the
ability to (1) enter data into MIDAS data bases, (2) generate, edit, and delete files, and
(3) modify systems security files.

In our prior audit, we reported that CADDS had not established adequate safeguards
to identify, monitor, and review the transactions of employees with unlimited access to
MIDAS. CADDS subsequently reduced the number of security officers with unlimited
access from 25 to 20 employees. Of this amount, only five security officers retain
access to all seven AS400 mainframe systems. These employees could establish false
identities for claimants or vendors and generate fictitious transactions that would not
otherwise be detected or prevented through normal MIDAS operations.


20
     SSA, Systems Security Handbook, chapter 12, section D.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)              22
CADDS developed a tracking log to record the transactions of all employees and
implemented systems modifications to identify employees who authorized transactions
for payment. However, we found that CADDS did not review the transactions of
security officers and had not maintained the tracking log for over 2 years. Furthermore,
CADDS did not review the transactions of employees who authorized payments within
MIDAS. We believe that CADDS should review the propriety of these transactions on a
recurring basis to prevent errors and irregularities.

Employee Workstations

CADDS did not implement an automatic lock to secure all employee workstations
after a period of nonuse. Since CADDS does not maintain a uniform systems policy,
employees may deactivate or remove the automatic lock from their workstations and
adjust the length of time before it is activated. As a result, CADDS needs to strengthen
its systems controls to protect against the unauthorized disclosure, manipulation, or
destruction of sensitive data.

SSA’s procedures require the DDS to install an automatic lock on all IWS/LAN
workstations. Specifically, the DDS should use a standardized screensaver to
automatically lock the workstation when not in use for 20 minutes. Employees must
enter a personal identification number or password to reactivate their access to the
workstation. In addition, all employees are required to lock or log off their workstations
before leaving them unattended.21

During our audit, we observed that a number of CADDS employees had not
implemented the automatic lock in their workstations. This undermines the security of
the system and compromises the integrity of sensitive data. In addition, we observed
that a number of CADDS employees did not lock or log off their workstations before
leaving their desks. Since employee workstations were unsecured and unattended,
there is an increased risk that data or programs may be altered, deleted, or replaced.

CADDS should improve its procedures to preclude unauthorized access to idle
workstations, thereby reducing the potential for fraud, waste, and abuse. In
August 2002, the SSA regional office issued a memorandum to require CADDS to
implement SSA’s systems policy, including an automatic lock and uniform configuration
settings for each workstation. During our audit, CADDS was in the process of
implementing this policy at 1 of its 12 branch offices.




21
  SSA, Systems Security Bulletin, October 13, 1999, and Systems Security Handbook, chapter 10,
section B.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                      23
                                             Conclusions and
                                            Recommendations
Our review of administrative costs disclosed that DSS had overstated its disbursements
by $6,872,503 for October 1996 through March 2002. This occurred because DSS
charged unallowable medical, nonpersonnel, and indirect costs to SSA’s programs.
We also found that DSS had overstated its unliquidated obligations by $5,708,314 for
FYs 1999 and 2000. As a result, DSS overreported its total obligations to SSA
by $12,580,817 (see Appendix A). In addition, DSS needs to improve its cash
management practices and access controls over computer security.

We recommend that SSA:

MEDICAL COSTS
1.   Improve its oversight of CE fees and limit future payments to the highest rate
     allowable by Federal or other agencies in the State.

2.   Encourage CADDS to adopt the AMA’s coding system to provide a crosswalk
     between the DDS and Medicare fees for the same or similar types of service.

3.   Instruct DSS to provide supporting documentation for its expansion of the fee
     increase from six specialty examinations to all specialty examinations during
     FYs 1999 through 2001.

4.   Clarify its procedures to ensure any changes in DDS fee schedules are reviewed
     in a timely manner.

5.   Determine the propriety of CE fees for x-rays, laboratory tests, and other medical
     services during FYs 1999 through 2001 and recover any unallowable costs.

6.   Work with CADDS to evaluate the reasonableness of its fee schedule and ensure
     the payment rates are adequate to obtain medical or other services necessary for
     determinations of disability.

7.   Instruct DSS to refund $167,564 of unallowable costs for duplicate payments
     related to medical records and services during FYs 1997 through 2001.

8.   Ensure CADDS reviews the claimant’s case history before ordering any medical
     records or services to avoid multiple requests for the same information.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)               24
9.   Ensure CADDS withholds payments for duplicate medical records or services until
     the branch offices review the exception reports and resolve any questionable
     transactions.

10. Instruct DSS to refund $12,671 of unallowable costs for review of records during
    FYs 1998 through 2001.

NONPERSONNEL COSTS
11. Instruct DSS to refund $1,694,079 of unallowable rental costs from the Oakland
    and San Diego branches for March 1999 through February 2002.

12. Ensure CADDS monitors rental costs for the Oakland and San Diego branches so
    that future rates do not exceed the amounts in the prior leases.

13. Instruct DSS to refund $252,371 of unallowable nonpersonnel costs from the Adult
    Programs Branch for October 1998 through June 2001.

14. Instruct DSS to refund $232,299 of unallowable rental and security costs from the
    Information Technology Projects Bureau for May 1998 through June 2001.

15. Instruct DSS to refund $105,061 of unallowable telephone costs from the
    Los Angeles State Programs Branch for August 1998 through February 2001.

16. Instruct DSS to refund $41,752 of unallowable rental costs from the Central
    Support Services Branch and DAPD Support Bureau for October 1999 through
    June 2001.

17. Instruct DSS to refund $37,168 of unallowable rental costs from the State
    Programs Quality Assurance Branch for August 1998 through November 1999.

18. Ensure CADDS periodically reviews its accounting records to identify incorrect
    charges to SSA’s programs.

19. Instruct DSS to provide training in the proper method of charging nonpersonnel
    costs to SSA’s programs. Such training should include the Central Support
    Services Branch, Information Technology Projects Bureau, and Business and
    Financial Services Bureaus.

INDIRECT COSTS
20. Instruct DSS to periodically review the DOF website for any revisions to the
    proposed statewide indirect costs.

21. Instruct DSS to refund $503,227 of unallowable departmental indirect costs from
    the Information Systems Division for May 1998 through March 1999.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)            25
22. Instruct DSS to refund $381,164 of unallowable departmental and statewide
    indirect costs for March 1999 through June 2001.

23. Instruct DSS to refund $281,154 of unallowable special administrative indirect
    costs for March 1999 through March 2002.

CASH MANAGEMENT
24. Instruct DSS to refund $128,071 of uncollected funds from the cancellation of
    unnegotiated warrants for January 1999 through June 2001.

25. Instruct DSS to establish procedures to recover the proceeds from unnegotiated
    warrants and refund such amounts to the applicable Federal grants.

26. Instruct DSS to pay $43,156 of lost interest for the premature draw down of Federal
    funds for March 2001 through March 2002.

27. Instruct DSS to return any unused SSA funds in the ARF to the Federal
    Government.

28. Periodically monitor the draw down of funds to ensure compliance with Federal
    laws.

29. Instruct DSS to discontinue the practice of drawing funds from 1 FY to pay for the
    expenditures of another FY.

UNLIQUIDATED OBLIGATIONS
30. Ensure CADDS deobligates any unliquidated obligations that are not supported by
    valid documentation for FYs 1999 and 2000.

31. Ensure CADDS improves the methods used to record unliquidated obligations
    so that future estimates more accurately reflect the amounts needed for valid
    expenditures.

32. Ensure CADDS reviews unliquidated obligations on a monthly basis after the end
    of the FY.

ACCESS CONTROLS
33. Ensure CADDS monitors and reviews the transactions of security officers on a
    recurring basis.

34. Ensure CADDS establishes procedures to require employees to lock or log off
    their workstations before leaving them unattended.


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)          26
35. Verify whether CADDS implemented an automatic lock to safeguard employee
    workstations in its branch offices.

SSA/DSS COMMENTS AND OIG RESPONSE
In its response, SSA generally agreed with 34 of the original 37 recommendations.
DSS generally agreed with 22 recommendations, disagreed with 14 recommendations,
and did not comment on 1 recommendation. Based on their comments, we deleted
2 of the original 37 recommendations and revised another 8 recommendations. In
addition, we incorporated a number of technical comments into the report. As of
March 2003, DSS refunded $2,364,702 in unallowable costs to SSA and agreed to
refund $1,171,878 in additional costs questioned by our audit. A summary of SSA’s
and DSS’ comments, along with our responses, is provided below. The full text of
SSA’s comments is included in Appendix C. Because of the length of DSS’ comments,
we did not include the full text as an appendix. A copy of DSS’ comments may be
obtained by written request to SSA/OIG/Office of Audit in Baltimore, Maryland.

MEDICAL COSTS
Our audit disclosed that DSS claimed unsupported medical costs that were charged
to SSA’s programs. These costs included fee increases for specialty examinations;
x-rays, laboratory tests, and other services; duplicate payments for MERs and CEs;
and review of records fees.

SSA Comments

SSA generally agreed with many of our recommendations. SSA agreed that CADDS
should improve its oversight of CE fees and limit reimbursement to the highest rate
paid by Federal or other agencies in the State. SSA also agreed that CADDS should
(1) adopt the AMA’s coding system to provide a crosswalk between DDS and Medicare
fees, (2) review the claimant’s case history before ordering medical records or services,
and (3) withhold payments for duplicate medical records or services until exception
reports are reviewed. In addition, SSA agreed to work with CADDS to improve its fee
schedule.

However, SSA disagreed with our use of Medicare fees for each of the 10 localities in
California to quantify our findings. SSA stated that a single fee schedule is allowable,
with the absolute maximum fee being the highest fee charged in the State. SSA also
suggested that we recalculate the finding using the highest locality rate in California.
Because of the lack of specific guidance, SSA agreed with our recommendation to
strengthen procedures for reviewing DDS fee schedules but disagreed with our
recommendation to recover unallowable costs for other specialty examinations
performed by board certified or eligible physicians.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                27
DSS Comments

DSS disagreed with our recommendations. DSS questioned our use of CPT code
99243 for the specialty examinations performed by board certified or eligible physicians.
Instead, DSS stated that CADDS had selected CPT code 99204 for these examinations.
Accordingly, DSS stated that its $121 fee for specialty examinations was below the
acceptable Medicare fee of $126.94 for CPT code 99204. DSS concluded that its
medical fees did not exceed the highest rate paid by Federal or other agencies in the
State for the same or similar types of service.

DSS also stated that CADDS had notified the RO of its fee increase for other specialty
examinations. Since CADDS paid these fees on behalf of SSA’s disability program,
DSS suggested that we revise our recommendation to request additional documentation
or explanation for the increased fees rather than recover any unallowable costs.
Moreover, DSS acknowledged that CADDS had experienced difficulty in recruiting
medical specialists because its reimbursement rates were below those of many
adjacent States.

In addition, DSS stated that CADDS was unable to determine whether the excessive
fees for x-rays, laboratory tests, and other medical services and duplicate payments for
MERs and CEs were unallowable. Furthermore, DSS stated that it reviewed the cases
involving excessive fees for review of records and concluded these payments were not
in error. DSS questioned our sampling methodology and stated that any alleged errors
were attributable to the normal cost of doing business and, therefore, were not subject
to repayment.

OIG Response

Based on SSA’s and DSS’ comments, we deleted two recommendations and revised
another eight recommendations. We used CPT code 99204 to recalculate our finding
for the six specialty examinations performed by board certified or eligible physicians.
Using the applicable Medicare fees for each of the 10 localities in California, we
determined that CADDS disbursed $1,275,008 in excess of the allowable Medicare
fees. Using the Medicare fee for the highest locality in California, CADDS still disbursed
$208,869 in excess of the allowable Medicare fees. Therefore, we encourage SSA to
improve its oversight of CE fees.

We also reported that CADDS disbursed $625,631 in excess of the allowable Medicare
fees for its x-rays, laboratory tests, and other medical services. Our calculation was
based on the applicable Medicare fees for each of the 10 localities in California. Using
the Medicare fee for the highest locality in California, CADDS still disbursed $438,474 in
excess of the allowable Medicare fees. However, we believe that CADDS should not
adopt a single fee schedule for the State because it contradicts Federal regulations and
ignores the use of multiple localities to correlate payment rates with the prevailing cost
of services in those areas.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)             28
Accordingly, we disagree with DSS’ position that its $121 fee for specialty examinations
was below the acceptable Medicare fee of $126.94 for CPT code 99204. The
$126.94 rate is applicable to the San Francisco locality. In Calendar Year 1999, only
4,343 (2.6 percent) of the 166,193 specialty examinations were performed in the
San Francisco locality. Since these examinations vary in length and complexity, we
encourage SSA to work with DSS to evaluate the reasonableness of its fee schedule
and determine the applicability of one CPT code for all specialty examinations.

Based on the additional information provided by DSS, we revised our finding for review
of records fees. If sample invoice 60 actually represented a payment for a missed
examination where the vendor reviewed the MER prior to the appointment, then we
agree the payment was allowable. Nevertheless, the remaining sample invoices were
not related to missed appointments or OHA cases. Projecting these errors to our
population, we estimate that CADDS disbursed at least $12,671 in erroneous payments
for review of records (see Appendix B).

Although we provided DSS with supporting documentation during our audit, we are
available to further discuss the rationale and methodology used to quantify our findings.
We reaffirm our position that our sampling methodology and projections are statistically
valid, as required under generally accepted government auditing standards. Overall, we
believe our recommendations, as revised, are reasonable and should be implemented.
We encourage SSA and DSS to work closely to ensure that CADDS strengthens its
controls over the accounting and reporting of medical costs.

NONPERSONNEL COSTS
Our audit disclosed that DSS claimed unallowable nonpersonnel costs that did not
benefit SSA’s programs. These costs included nonpersonnel costs from the Oakland
and San Diego Branches, Adult Programs Branch, Information Technology Projects
Bureau, Los Angeles State Programs Branch, Central Support Services Branch and
DAPD Support Bureau, and State Programs Quality Assurance Branch.

SSA Comments

SSA agreed with our recommendations.

DSS Comments

DSS agreed with our recommendations. DSS stated that it had refunded $1,694,079 of
excessive rental costs from the Oakland and San Diego branches. For the other
components, DSS agreed to refund $668,651 of unallowable costs questioned by our
audit. In addition, DSS agreed to provide training to its employees and stated that
CADDS is in the process of developing a system to monitor the propriety of
nonpersonnel costs charged to SSA’s programs.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           29
OIG Response

SSA’s and DSS’ planned actions addressed our recommendations.

INDIRECT COSTS
Our audit disclosed that DSS claimed unallowable indirect costs that did not benefit
SSA’s programs. These costs included statewide, departmental, and special
administrative indirect costs.

SSA Comments

SSA agreed with our recommendations.

DSS Comments

DSS agreed with two of our four recommendations. DSS agreed to refund $503,227 of
unallowable costs from the Information Systems Division and periodically monitor the
DOF website for any revisions to the statewide indirect costs. However, DSS disagreed
with our recommendations to refund $381,164 of unallowable departmental and
statewide indirect costs and $281,154 of unallowable special administrative indirect
costs. Specifically, DSS stated that HHS, Division of Cost Allocation, had approved
its Cost Allocation Plans for July 1998 through June 2001, which included the special
administrative indirect cost pool and defined the guidelines for its use. In addition, DSS
stated that special administrative indirect costs may be allocated to SSA’s programs by
components outside of DAPD because such costs are derived from direct charges.

OIG Response

We do not agree with DSS. First, although HHS approved the Cost Allocation Plans,
DSS subsequently revised its methodology for allocating indirect costs and did not
include the revision in these plans. Therefore, HHS did not approve the revised cost
allocation methodology, which resulted in an inequitable distribution of departmental
and statewide indirect costs to SSA. This occurred because the allocation base used to
distribute departmental and statewide indirect costs did not include the salaries from the
special administrative indirect cost pool. As a result, DSS allocated departmental and
statewide indirect costs to SSA’s programs that should have been allocated to non-SSA
programs only.

Second, the allocation of special administrative indirect costs to SSA’s programs is
contrary to Federal cost standards, which state that expenditures may be allocated to a
particular program if the goods or services are charged in accordance with the relative
benefits received. DSS established the special administrative indirect cost pool to
accumulate the costs of activities that benefit non-SSA programs only. By definition,
SSA’s programs did not receive any benefits from these expenditures. As a result, DSS




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)             30
allocated special administrative indirect costs to SSA’s programs that should have been
allocated to non-SSA programs only.

CASH MANAGEMENT
Our audit disclosed that DSS needs to improve its cash management practices. These
practices included the collection of funds from unnegotiated warrants, use of SSA funds
to replenish State funds, and proper draw down of Federal funds.

SSA Comments

SSA generally agreed with our recommendations. However, SSA stated that its Office
of Finance monitors the draw down of funds centrally. In addition, SSA stated that such
monitoring may be difficult to implement locally because of potential problems with
accessing and using Treasury’s ASAP system.

DSS Comments

DSS agreed with five of our six recommendations. DSS stated that it already refunded
$128,071 from the cancellation of unnegotiated warrants and implemented procedures
to return uncollected funds to the applicable Federal grants. DSS also stated that it
requested DOF to include the premature draw down of funds in its calculation of the
appropriate interest liability payment. In addition, DSS agreed to work with the State
Department of General Services and SSA to return any remaining funds in the ARF to
the Federal Government. DSS disagreed with our recommendation to discontinue the
practice of drawing funds from 1 FY to pay for the expenditures of another FY. DSS
stated that these draw downs were necessary because of the unavailability of funds
from other sources during periods of Federal continuing resolutions.

OIG Response

SSA’s and DSS’ planned actions generally addressed our recommendations. Since
SSA was unaware of the improper draw down of funds, we believe it should explore
options for monitoring the draw downs to ensure compliance with Federal laws. We
also believe that DSS should work with SSA when additional funding is needed for its
disability program.

UNLIQUIDATED OBLIGATIONS
Our audit disclosed that CADDS reported unliquidated obligations in excess of
supporting expenditures. These unliquidated obligations included medical,
nonpersonnel, and indirect costs.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)            31
SSA Comments

SSA agreed with our recommendations. Although SSA agreed that DSS could improve
its review of unliquidated obligations after the end of the FY, it stated that these reviews
could be performed on a quarterly rather than monthly basis.

DSS Comments

DSS agreed with our recommendations. DSS stated that CADDS has identified and
corrected errors in its procedures for estimating unliquidated obligations. DSS also
stated that it reviews unliquidated obligations on a monthly basis and has substantially
reduced its obligations for the current and prior years.

OIG Response

SSA’s and DSS’ planned actions addressed our recommendations.

ACCESS CONTROLS
Our audit disclosed that DSS needs to improve its access controls over computer
security. These controls included the monitoring of MIDAS transactions and safeguards
over employee workstations.

SSA Comments

SSA agreed with our recommendations.

DSS Comments

DSS agreed with our recommendations. DSS stated that CADDS monitors (1) the
on-site security audits and Comprehensive Integrity Review program reviews conducted
by local security officers, and (2) the assignment of user profiles, passwords, and
personal identification numbers. In addition, DSS stated that CADDS installed an
automatic lock to log off idle workstations after 20 minutes in all offices statewide.

OIG Response

SSA’s and DSS’ planned actions generally addressed our recommendations. However,
to protect against the unauthorized disclosure, manipulation, or destruction of sensitive
data, we encourage CADDS to remind employees to lock or log off their workstations
before leaving them unattended.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)               32
                                       Appendices




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                                                                              Appendix A

Summary of Monetary Results

                                 Description                                    Amount

    Medical Costs
     Fee Increase for Six Specialty Examinations                               $1,275,008
     Fee Increase for Other Specialty Examinations                                549,575
     X-Rays, Laboratory Tests, and Other Services                                 625,631
     Duplicate Payments for MERs and CEs                                          167,564
     Review of Records Fees                                                        12,671

    Nonpersonnel Costs
     Oakland and San Diego Branches                                             1,694,079
     Adult Programs Branch                                                        252,371
     Information Technology Projects Bureau                                       232,299
     Los Angeles State Programs Branch                                            105,061
     Central Support Services Branch and DAPD Support Bureau                       41,752
     State Programs Quality Assurance Branch                                       37,168

    Indirect Costs
     Statewide Indirect Costs                                                    542,552
     Departmental Indirect Costs                                                 503,227
     Cost Allocation Methodology                                                 381,164
     Special Administrative Indirect Costs                                       281,154

    Cash Management
     Unnegotiated Warrants                                                       128,071
     Use of SSA Funds to Replenish State Funds                                    43,156

    Unliquidated Obligations                                                     5,708,314

    Total                                                                      $12,580,817




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                                                                              Appendix B

Sampling Methodology
We obtained data extracts from the Modernized Interim Disability Adjudication System
to identify duplicate or erroneous payments for medical costs. Specifically, we selected
a random sample of (1) invoices for medical evidence of records (MER) during Fiscal
Years (FY) 1997 through 2001, and (2) invoices for review of records (ROR) during
FYs 1998 through 2001. For the MER data extract, we identified invoices with matching
Social Security numbers, vendor numbers, invoice amounts, case numbers, and less
than 3 months between payment dates. For the ROR data extract, we identified
invoices with fee codes “99080REV” and “99080OHA” that were not related to missed
appointments or Office of Hearings and Appeals cases.

Based on a random sample of 100 MER invoices, we found that CADDS disbursed
$1,034 in duplicate payments for FYs 1997 through 2001. Projecting these results to
our population of 14,605 MER invoices, we estimate that CADDS disbursed at least
$121,342 in duplicate payments during this period. In addition, based on a random
sample of 100 ROR invoices, we found that CADDS disbursed $160 in erroneous
payments for FYs 1998 through 2001. Projecting these results to our population of
18,178 ROR invoices, we estimate that CADDS disbursed at least $12,671 in erroneous
payments during this period. The following tables provide the details of our population,
sample results, and statistical projections.

                             Table 1 – Population Description

         Population                   Population Count                Population Dollars
 Duplicate MERs                            14,605                        $260,158
 ROR Fees                                  18,178                          365,337

                                 Table 2 – Sample Results

       Sample                 Sample Size             Error Count             Error Dollars
 Duplicate MERs                  100                      52                     $1,034
 ROR Fees                        100                        8                       160

                   Table 3 – Statistical Projection of Sample Results

          Projection                   Duplicate MERs                     ROR Fees
 Point Estimate                          $151,089                          $29,085
 Lower Limit                               121,342                          12,671
 Upper Limit                               180,835                          45,499

All statistical projections are reported at the 90 percent confidence level.



Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                                                                              Appendix C

SSA Comments




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                                SOCIAL SECURITY
MEMORANDUM

Date:      March 11, 2003                                          Refer To:   S2D9G4


To:        Assistant Inspector General
           for Audit

From:      Assistant Regional Commissioner
           Management and Operations Support
           San Francisco

Subject:   Audit of Administrative Costs Claimed by the California Disability Determination
           Services (A-09-02-22022)--REPLY

           Thank you for the opportunity to review the draft report of your audit of the California
           Disability Determination Services. Per your request, we are providing an attachment
           with specific written comments for each of the 37 recommendations contained in the
           draft report.

           We are not able to determine the reasonableness of some of the recommendations
           without reviewing the State response. For such recommendations we have indicated
           “We agree pending the State response.” We may submit additional comments after
           considering the State response.

           We greatly appreciate the work performed by the OIG staff in this region. They display
           consistent dedication to improving the fiscal efficiency of our DDSs. Although we may
           have issues with some of the recommendations, we agree that the findings indicate
           areas needing improvement in the DDS or in SSA’s DDS oversight.

           If you have any questions regarding our comments, please call me. If staff have any
           questions, they may call Diane Trewin in the Center for Disability at (510) 970-8295.


                                                            /s/
                                                    Ron Sribnik for
                                                   Patrick E. Sheehan

           Attachment




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                 C-1
                                                                                Attachment


           Regional Office Comments on the California DDS Draft Audit Report


     Recommendation 1: Evaluate the reasonableness of $3,119,977 in fees for the
     six specialty examinations performed by board certified or eligible physicians
     during FYs 1999 through 2001.

     Comment: We cannot make a reasonableness determination until California
     identifies the CPT equivalency for these specialty examination CEs. It is
     conjecture only that they equate to the 99243 code. Since a recent DDS fee
     schedule proposal identifies a more extensive examination (99204) for their
     specialty examination CE, it is likely that the 99243 code is not the appropriate
     code.

     During a recent discussion with OIG regional staff, they stated that the Medicare
     fees they used to compute the $3,119,977 were based on the locality of each
     exam. And yet, the Medical Procedures Fee Schedule Workgroup Report of
     1999, quoted in the body of the draft audit report, states “If the State has multiple
     Medicare localities, the highest fee paid by any of the localities is the upper limit
     for the DDS fee schedule. It is not necessary to create a different DDS fee
     schedule for each locality.”

     Since POMS does not address the upper fee limit in States with multiple localities
     and we have never provided California with specific guidance, it would not be
     appropriate to apply the stricter standard retroactively. We do not think that
     setting a different fee limit for each locality is the only reasonable standard. We
     believe the logistics of implementing different fee schedules for each locality
     might be so onerous that such a policy would be unsupportable.

     Recommendation 2: Ensure CADDS improves its oversight of CE fees and limits
     reimbursement to the highest rate paid by Federal or other agencies in the State.

     Comment: We find this recommendation reasonable.

     Recommendation 3: Ensure CADDS adopts the AMA’s coding system to provide
     a crosswalk between the DDS and Medicare fees for the same or similar types of
     service.

     Comment: While we agree that use of the AMA coding system is recommended,
     based on the current regulations and wording in POMS, we cannot require the
     DDS to use this system. We suggest a recommendation that requires CADDS to
     use the AMA coding system or develop an alternate method of providing a
     crosswalk between the DDS fee schedule and the maximum allowable fee.



Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)              C-2
     Recommendation 4: Instruct DSS to refund $549,575 of unallowable costs for the
     other specialty examinations performed by board certified or eligible physicians
     during FYs 1999 through 2001.

     Comment: While we agree that a clarification of existing guidelines regarding
     DDS fee schedules is needed, we do not agree with the recommendation to
     request a refund. A refund request is not appropriate because:

             a. The RO did receive a copy of the internal DDS memo that was dated
             before the effective date of the increase. It is not appropriate to base the
             refund request on ‘lack of adequate notification’ because we received
             information from the DDS on the change and neither POMS nor the RO
             has ever specified what constitutes notification. POMS states that ‘The
             DDS will submit a copy to the regional office, Professional Relations
             Coordinator’ once they determine a new fee. It appears the DDS
             complied with the current instructions.

             b. The POMS section that refers to DDS fee schedules, DI 39545.210,
             gives the DDS the responsibility to determine the fee schedule.

     Recommendation 5: Ensure CA DDS discontinues the payment of increased fees
     for the other specialty examinations performed by board-certified or eligible
     physicians.

     Comment: While we are currently working with the DDS to improve their fee
     schedule, based on the current regulations and POMS, it is ultimately a DDS
     management decision whether they continue to pay the board-certified fee.

     In the fall of 2002, California proposed an increase in their fee schedule that
     includes eliminating the extra $25 fee for board certified/eligible status. It would
     also conform to the CPT coding for all exams. We are working with them on this
     proposal and the resulting budgetary impact.

     Recommendation 6: Initiate action to strengthen its procedures over reviewing
     and approving any changes in DDS fee schedules.

     Comment: While we agree with the recommendation to strengthen procedures
     related to reviewing DDS fee schedules, the regulations and POMS do not
     require SSA approval to set or make changes to the fee schedule. Furthermore,
     we do not support a change in the regulations to require approval but instead
     support a clarification of existing procedures as well as better oversight by both
     the DDS and the SSA regional office.

     As with all DDS management decisions that have a significant budgetary impact,
     the DDS works closely with the regional office to ensure adequate funding exists.
     For example, the DDS fee schedule change proposal that was submitted in early
     FY 2003, mentioned in our comment above for Recommendation #5, would


Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)                 C-3
     eliminate the board-certified fee, but also would significantly increase total
     medical spending. Although the State could properly decide to implement
     without getting approval from SSA, there would be no guarantee of the additional
     funding needed. This led to their decision to submit the proposal to gain our
     support before implementation. We believe that the current division of
     responsibility, with the DDS setting the fee schedule and SSA controlling the
     funding, works well.

     Recommendation 7: Instruct DSS to refund $625,631 of unallowable costs for
     CEs during FYs 1999 through 2001.

     Comment: As in the comments to Recommendation # 1 above, based on
     discussion with OIG staff, we question the use of locality specific Medicare rates
     rather than the highest rate used in California. We suggest that OIG recalculate
     the amounts based on the fee for the highest State locality in order to determine
     if there are unallowable costs. Also, we would like to review the State response
     before considering the reasonableness of the refund request.

     Recommendation 8: Ensure CADDS modifies its fee schedule so that fees paid
     do not exceed the highest rate paid by Federal or other agencies in the State.

     We agree pending the State response.

     Recommendation 9: Instruct DSS to refund $167,564 of unallowable costs for
     duplicate payments related to medical records and services during FYs 1997
     through 2001.

     Comment: This recommendation appears reasonable but we would like to see
     the State response.

     Recommendation 10: Ensure CADDS establishes procedures to review the
     claimant’s case history before ordering any medical records or services to avoid
     multiple requests for the same information.

     Comment: Our understanding is the State already has an established procedure.
     The DDS is doing a reasonably good job in this area based on the fact they spent
     over $220 million on medical expenses over the five year period covered by this
     finding, with the estimated duplicate payments representing less than a tenth of
     one percent.

     Recommendation 11: Ensure CADDS withholds payments for duplicate medical
     records or services until the branch offices review the exception reports and
     resolve any questionable transactions.

     Comment: We agree pending the State response.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)             C-4
     Recommendation 12: Instruct DSS to refund $15,406 of unallowable costs for
     review of records during FYs 1998 through 2001.

     Comment: We agree pending the State response.

     Recommendation 13: Instruct DSS to refund $1,694,079 of unallowable rental
     costs from the Oakland and San Diego branches for March 1999 through
     February 2002.

     Comment: We agree pending the State response.

     Recommendation 14: Ensure CADDS monitors rental costs for the Oakland and
     San Diego branches so that future rates do not exceed the amounts in the prior
     leases.

     Comment: We agree pending the State response.

     Recommendation 15: Instruct DSS to refund $252,371 of unallowable
     nonpersonnel costs from the Adult Programs Branch for October 1998 through
     June 2001.

     Comment: We agree pending the State response.

     Recommendation 16: Instruct DSS to refund $232,299 of unallowable rental and
     security costs from the Information Technology Projects Bureau for May 1998
     through June 2001.

     Comment: We agree pending the State response.

     Recommendation 17: Instruct DSS to refund $105,061 of unallowable telephone
     costs from the Los Angeles State Programs Branch for August 1998 through
     February 2001.

     Comment: We agree pending the State response.

     Recommendation 18: Instruct DSS to refund $41,752 of unallowable rental costs
     from the Central Support Services Branch and DAPD Support Bureau for
     October 1999 through June 2001.

     Comment: We agree pending the State response.

     Recommendation 19: Instruct DSS to refund $37,168 of unallowable rental costs
     from the State Programs Quality Assurance Branch for August 1998 through
     November 1999.

     Comment: We agree pending the State response.



Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)       C-5
     Recommendation 20: Ensure CADDS periodically reviews its accounting records
     to identify incorrect charges to SSA’s programs.

     Comment: We agree pending the State response.

     Recommendation 21: Instruct DSS to provide training in the proper method of
     charging nonpersonnel costs to SSA’s programs. Such training should include
     the Central Support Services Branch, Information Technology Projects Bureau,
     and Business and Financial Services Bureaus.

     Comment: We agree pending the State response.

     Recommendation 22: Instruct DSS to periodically review the DOF website for
     any revisions to the proposed statewide indirect costs.

     Comment: We agree pending the State response.

     Recommendation 23: Instruct DSS to refund $503,227 of unallowable
     departmental indirect costs from the Information Systems Division for May 1998
     through March 1999.

     Comment: We agree pending the State response.

     Recommendation 24: Instruct DSS to refund $381,164 of unallowable
     departmental and statewide indirect costs for March 1999 through June 2001.

     Comments: We agree pending the State response.

     Recommendation 25: Instruct DSS to refund $281,154 of unallowable special
     administrative indirect costs for March 1999 through March 2002.

     Comments: We agree pending the State response.

     Recommendation 26: Instruct DSS to refund $128,071 of uncollected funds from
     the cancellation of unnegotiated warrants for January 1999 through June 2001.

     Comments: We agree pending the State response.

     Recommendation 27: Instruct DSS to establish procedures to recover the
     proceeds from unnegotiated warrants and refund such amounts to the applicable
     Federal grants.

     Comments: We agree pending the State response.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           C-6
     Recommendation 28: Instruct DSS to pay $43,156 of lost interest for the
     premature draw down of Federal funds for March 2001 through March 2002.

     Comments: We agree pending the State response.

     Recommendation 29: Instruct DSS to return any unused SSA funds in the ARF to
     the Federal Government.

     Comments: We agree, if State rules permit, that they should return unused funds
     to ASAP until they are ready to be expended.

     Recommendation 30: Periodically monitor the draw down of funds to ensure
     compliance with Federal laws.

     Comments: We agree in principle with this recommendation. However, we
     understand this function is already performed centrally by SSA’s Office of
     Finance. Our experience is that this would be difficult to implement at the
     regional office level because of ASAP access issues combined with the difficulty
     with using the Department of Treasury’s ASAP system as a monitoring tool.
     Due to the manner in which credits and draws are displayed, it would be hard to
     track compliance. Ultimately, even with the work performed by SSA’s Office of
     Finance, we rely on the periodic audits performed by OIG to ensure compliance.

     Recommendation 31: Instruct DSS to discontinue the practice of drawing funds
     from 1 FY to pay for the expenditures of another FY.

     Comments: We agree.

     Recommendation 32: Ensure CADDS deobligates any unliquidated obligations
     that are not supported by valid documentation for FYs 1999 and 2000.

     Comments: We agree.

     Recommendation 33: Ensure CADDS improves the methods used to record
     unliquidated obligations so that future estimates more accurately reflect the
     amounts needed for valid expenditures.

     Comments: We agree.

     Recommendation 34: Ensure CADDS reviews unliquidated obligations on a
     monthly basis after the end of the FY.

     Comments: We agree with the intent of this recommendation but believe that a
     quarterly review should be sufficient. Since, once the year is over, the State
     fiscal reporting is quarterly and SSA’s Office of Finance generally adjusts funding
     only once a quarter, we are not sure if there is enough benefit from doing the



Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           C-7
     reviews monthly. We would be satisfied if the quarterly reporting of unliquidated
     obligations were improved.

     Recommendation 35: Ensure CADDS monitors and reviews the transactions of
     security officers on a recurring basis.

     Comments: We agree.

     Recommendation 36: Ensure CADDS establishes procedures to require
     employees to lock or log off their workstations before leaving them unattended.

     Comments: We agree.

     Recommendation 37: Verify whether CADDS implemented an automatic lock to
     safeguard employee workstations in its branch offices.

     Comments: We agree.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)            C-8
                                SOCIAL SECURITY
MEMORANDUM

Date:      April 2, 2003                                          Refer To:   S2D9G4


To:        Assistant Inspector General
           for Audit

From:      Assistant Regional Commissioner
           Management and Operations Support
           San Francisco

Subject:   Audit of Administrative Costs Claimed by the California Disability Determination
           Services (A-09-02-22022)

           We have reviewed the State comments on the draft report of your audit of the
           California Disability Determination Services. We do not have any additional
           comments at this time.

           We do want to make a correction to our original comments. After submission, it
           came to our attention that in the comments to recommendation one, we quoted a
           paragraph from an earlier version of the Medical Procedures Fee Schedule
           Workgroup Report of 1999 cited in your report. We regret this mistake. After
           reviewing the final version of the above report, our basic position on the finding
           remains the same. However, we are attaching revised comments for
           recommendation one.

           If you have any questions, please call me. If staff have any questions, they may
           call Diane Trewin in the Center for Disability at (510) 970-8295.



                                                  /s/ Diane Blackman for
                                                  Patrick E. Sheehan

           Attachment




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)               C-9
                                                                              Attachment


                          Revised Comments on Recommendation 1


     Recommendation 1: Evaluate the reasonableness of $3,119,977 in fees for the
     six specialty examinations performed by board certified or eligible physicians
     during FYs 1999 through 2001.

     Comment:

     During a recent discussion with OIG regional staff, they stated that the Medicare
     fees they used to compute the $3,119,977 were based on the locality of each
     exam. And yet, the Medical Procedures Fee Schedule Workgroup Report of
     1999, quoted in the body of the draft audit report, states “In States with different
     localities, it is not necessary to create a different DDS fee schedule for each
     locality.” The report also states that “the highest fee should not be readily
     adopted” and “SSA must emphasize that States are expected to be cost
     efficient.” Our interpretation of the Workgroup report is that a single fee schedule
     is allowable, with the absolute maximum fee being the highest fee charged in the
     State. We agree that the State should not automatically adopt the highest fee,
     but the State will need to adopt a fee that will enable them to get the needed
     evidence throughout the State.

     Since POMS does not address the upper fee limit in States with multiple localities
     and we have never provided California with specific guidance, it would not be
     appropriate to apply the stricter standard retroactively. We do not think that
     setting a different fee limit for each locality is the only reasonable standard. We
     believe the logistics of implementing different fee schedules for each locality
     might be so onerous that such a policy would be unsupportable.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)           C-10
                                                                              Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Western Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to those named above:

   James A. Sippel, Senior Auditor

   Timothy E. Meinholz, Senior Auditor

   Wilfred P.K. Wong, Auditor

   Regina D. Finley, Auditor

   Brennan Kraje, Statistician, Policy, Planning and Technical Services

   Annette DeRito, Program Analyst, Policy, Planning and Technical Services


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-02-22022.




Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
